No. 20-472

 

 

IN THE

Supreme Court of the Hnited States

HOLLYFRONTIER CHEYENNE REFINING, LLC,
HOLLYFRONTIER REFINING & MARKETING, LLC,
HOLLYFRONTIER WOODS CROSS REFINING, LLC, &
WYNNEWOOD REFINING Co., LLC,

Petitioners,
v.

RENEWABLE FUELS ASSOCIATION, et al.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

BRIEF OF SMALL REFINERIES COALITION AS
AMICUS CURIAE SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
7,569 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

 

Colin Casey Wogan
Wilson-Epes Printing Co., Inc.
